                             Department of the Interior
                             Office of Inspector General




           AUDIT REPORT



               U.S. Fish and Wildlife Service
            Federal Assistance Program Grants
           Awarded to the State of Mississippi,
       Department of Wildlife, Fisheries, and Parks,
       From July 1, 2004, through June 30, 2006




Report No. R-GR-FWS-0008-2007          September 2007
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191
                                                                               September 21, 2007

                                    AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Director of External Audits

Subject:       Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
               Awarded to the State of Mississippi, Department of Wildlife, Fisheries, and Parks,
               From July 1, 2004, through June 30, 2006 (No. R-GR-FWS-0008-2007)

        This report presents the results of our audit of costs incurred by the State of Mississippi
(State), Department of Wildlife, Fisheries, and Parks (Department), under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Federal
Assistance Program for State Wildlife Restoration and Sport Fish Restoration (Federal
Assistance Program). The audit included claims totaling approximately $18.3 million on 25
grants that were open during State fiscal years (SFYs) ended June 30 of 2005 and 2006 (see
Appendix 1). The audit also covered Department compliance with applicable laws, regulations,
and FWS guidelines, including those related to the collection and use of hunting and fishing
license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we found that while the State passed legislation required to
allow it to participate in the Federal Assistance Program, the legislation was not in full
compliance with requirements. We also found that the Department used unapproved indirect
cost rates, overcharged the grants for workers’ compensation, potentially diverted interest earned
on timber revenue to unallowable purposes, and did not report to FWS all of the program income
it earned under the grants.

        We provided a draft of the report to FWS and the Department for response. We
summarized Department and FWS Region 4 responses after each recommendation, as well as our
comments on the responses. FWS stated that documentation provided by the Department will be
incorporated into a pending corrective action plan. Based on the Department’s response, we
modified the recommendation for potential diversion of interest income from timber revenue.
We list the status of each recommendation in Appendix 3.
        Please respond in writing to the findings and recommendations included in this report by
December 20, 2007. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Mr.
Lawrence Kopas at 703–487–5358, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service




                                               2
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. The Acts also
require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •   claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

       •   used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

       •   reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $18.3 million on the 25 grants that were
open during SFYs 2005 and 2006 (see Appendix 1). We report only on the conditions that
existed during this audit period. We performed our audit at Department headquarters in Jackson,
MS, and visited one fisheries field office, three wildlife management areas (WMAs), and two
boat ramps (see Appendix 2). We performed this audit to supplement, not replace, the audits
required by the Single Audit Act Amendment of 1996 and by Office of Management and Budget
Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted auditing procedures
as necessary under the circumstances. Our tests and procedures included:


1
    As amended 16 U.S.C. §§ 669 and 777, respectively.




                                                         3
   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, indirect costs, drawdowns of
       reimbursements, in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

To the extent possible, we relied on the relevant work of the State of Mississippi Office of the
State Auditor, which helped us to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in them for testing. We did not project the results of the tests to the total
population of recorded transactions, nor did we evaluate the economy, efficiency, or
effectiveness of Department operations.

Prior Audit Coverage
On August 4, 1999, we issued “U.S. Fish and Wildlife Service Federal Aid Grants to the State of
Mississippi Department of Wildlife, Fisheries and Parks for the Fiscal Years Ended June 30,
1996, and 1997” (Report No. 99-E-729). We followed up on the status of the ten
recommendations in the report with the Department of Interior, Office of Assistant Secretary for
Policy, Management and Budget (PMB), which is responsible for tracking open
recommendations. PMB considers the prior recommendations unresolved and unimplemented.
The recommendations relate to:

       1.    Improving cumulative cost data,

       2.    Standardizing labor timekeeping,

       3.    Simplifying time and attendance leave codes,

       4.    Documenting the way the billing system works,




                                                  4
       5.   Preparing grant proposals in a consistent manner,

       6.   Developing grant reporting procedures,

       7.   Revising purchasing system procedures,

       8.   Improving asset management,

       9.   Developing procedures to review program income, and

      10.   Developing formal procedures for reporting in-kind (non-cash) contributions used to
            meet the required State share of grant expenditures.

Our current audit scope included the majority of areas covered in the prior audit. Where
conditions exist that still require improvement, we reported them in the Findings and
Recommendations section of this report. The findings in this report differ significantly enough
from those reported in the prior audit to warrant new recommendations, rather than repeating the
recommendations from the prior audit. The new recommendations do not eliminate the need for
the State and FWS to document and report to PMB the status of the prior audit
recommendations.

We reviewed the State’s most recent SFY2005 Comprehensive Annual Financial Report and
Single Audit Report. In our review of the Single Audit Report, we found that the Department’s
Sport Fish and Wildlife Program grants were not considered major programs and were assessed a
low risk. In addition, we reviewed the results of the State’s property audits for SFYs 2005 and
2006 conducted by the Office of the State Auditor. The State auditor found deficiencies in the
State’s property management system. However, the State submitted the required documentation
to the State Auditor to address and resolve the weaknesses identified in the State Auditor’s
report.




                                               5
                                      Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we found several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Non-Compliant Assent Legislation. Although the State passed legislation to assent to
       the provisions of the Acts, as required, the legislation allows for the potential diversion of
       hunting and fishing license revenues to non-fish and wildlife activities.

       Unapproved Indirect Cost Rates Used. The Department computed the indirect costs it
       charged to the SFYs 2005 and 2006 grants using a rate that had not been approved for
       those years.

       Excess Workers’ Compensation Charged. The Department used an outdated rate to
       compute the workers’ compensation premiums it charged to the grants, resulting in
       overcharges to the grants.

       Potential Diversion of Interest From Timber Revenue. Interest earned on timber
       revenue was not returned to the Fisheries and Wildlife Divisions within the Department,
       as required.

       Unreported Program Income. The Department did not report all the program income it
       earned from the permits it issued for use of the State’s lakes and facilities.

Findings and Recommendations
A.     Non-Compliant Assent Legislation

       Mississippi passed legislation to assent to the provisions of the Acts, as required under
       federal regulations. However, the State’s legislative language allows for the potential
       diversion of hunting and fishing license revenues to non-fish and wildlife activities. The
       State is therefore not in full compliance with the assent legislation requirements.

       The Code of Federal Regulations (50 C.F.R. §§ 80.3 and 80.4) require that before FWS
       apportions any Federal Assistance Program grant monies to a State, the State must assent
       to the provisions of the Acts. The State must pass laws that prohibit the use of license
       fees paid by sport fishermen—and associated revenue such as interest earned on the
       fees—for any purpose other than the administration of the State fish and wildlife agency.

       The relevant State legislation restricts the use of license revenue to the “administration of
       the Department.” When the State passed the legislation, the “Department” meant the



                                                 6
State fish and wildlife agency, which was called the “State Game and Fish Commission.”
In 1989, after adopting the original assent legislation, the State reorganized the
Department. As a result of the reorganization, the State added the functions of a parks
agency to the Department’s responsibilities. Therefore, the assent legislation, by
allowing the use of license revenue for “administration of the Department,” allows for the
use of license revenue on park activities.

Using license revenue for administration of a parks agency is not allowed under 50
C.F.R. §§ 80.3 and 80.4. Use of game and fish funds for administration of a parks
agency would be a diversion of license revenues and could result in the State becoming
ineligible to participate in the Federal Assistance Program.

We notified Department officials of this finding in February 2007. Subsequently, they
began developing a proposal to submit to the State legislature. The proposal requests that
the legislature revise the State Code to ensure the Department use fish and wildlife
license revenue only to fund those operations related to the fish and wildlife divisions
within the Department.

Recommendation

We recommend that FWS require the Department to work with the State legislature to
ensure the legislature passes legislation that restricts the use of game and fish license
revenue to those operations related to fish and wildlife divisions within the Department.

Department Response

Department officials concurred with the finding. They provided a copy of the proposed
change in legislation to FWS and to us. When the State legislators return to session, the
Department plans to work actively with them to ensure the changes are enacted into law.

FWS Response

FWS regional management concurs with the recommendation and has received from the
Department a copy of the proposed legislation that will restrict use of game and fish
license revenue. The documentation will be incorporated into a pending corrective action
plan.

OIG Comments

While FWS regional management concurs with the recommendation and the Department
indicated action is being taken to address it, additional information is needed in the
corrective action plan, including:

   •   targeted completion date,




                                         7
        •   titles of officials responsible for the actions taken or planned to implement the
            recommendation, and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the State.

B.   Unapproved Indirect Cost Rates Used

     Indirect costs include costs that cannot be associated directly with one particular grant or
     program, such as those for general administration of an agency. Grantees normally
     allocate indirect costs across multiple grants and programs using an indirect cost rate.
     Federal regulations require grantees that claim indirect costs to use an approved rate to
     calculate those costs. The Department claimed indirect costs under grants open in SFYs
     2005 and 2006, but did not have approved rates for those years.

     Title 2 C.F.R. 225, Appendix E, Part D1a, requires all grantees planning to claim indirect
     costs under federal awards to prepare an indirect cost rate proposal and supporting
     documentation. Title 2 C.F.R. 225, Appendix E, Part E1, requires an independent agency
     (“the cognizant federal agency”) to review, negotiate, and approve the proposed indirect
     cost rates on a timely basis.

     The Department of Interior’s National Business Center (NBC) serves as the cognizant
     federal agency for the State. In both SFYs 2005 and 2006, the Department used rates
     approved only for SFY2004 to calculate indirect costs charged to grants for fisheries
     (29.38 percent), wildlife (38.75 percent), and hunter education (26.28 percent) activities.
     It used the SFY2004 rates because it submitted the indirect cost proposal for SFY2005
     late for negotiation and, while it submitted the indirect cost proposal for SFY2006 on
     time, rates had not been negotiated.

     Subsequent to charging the SFYs 2005 and 2006 grants using the SFY2004 rate, the
     Department obtained an approved rate for each of the years in question. The Department
     calculated the difference between the amount that should have been claimed and the
     amount actually claimed and identified $59,262 (federal share) in overcharges to the
     grants. We verified the calculations.

     We notified Department officials of this finding in February of 2007. To address the
     overcharges, Department officials reduced a current year drawdown (request for
     reimbursement) for grant F-68-24 by $17,404 and grant W-49-54 by $41,858. FWS
     officials approved of these actions to address the overcharges, and we are therefore not
     questioning the costs in this report.

     Recommendations

     We recommend that FWS ensure the Department establishes:




                                               8
     1. procedures to prepare and submit indirect cost proposals in a timely manner if it
        intends to claim indirect costs and

     2. a policy to prevent charging grants for indirect costs if an approved indirect cost rate
        has not been obtained.

     Department Response

     Department officials concurred with the findings. They stated that proposals for SFYs
     2007 and 2008 have been submitted for negotiation in a timely manner and that grants
     will be adjusted when they receive approved rates.

     FWS Response

     FWS regional management concurs with the recommendations and has received from the
     Department (1) notification that they have timely prepared and submitted, for NBC
     approval, indirect cost proposals for SFYs 2007 and 2008, and (2) a copy of a procedure
     to charge grants for indirect costs only after an indirect cost rate has been obtained. The
     documentation will be incorporated into a pending corrective action plan.

     OIG Comments

     While FWS regional management concurs with the recommendations and the Department
     indicated action has been taken to address them, additional information is needed in the
     corrective action plan, including:

        •   targeted completion dates,

        •   titles of officials responsible for the actions taken or planned to implement the
            recommendations, and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the State.

C.   Excess Workers’ Compensation Premiums Charged

     The Department overcharged FWS grants for workers’ compensation insurance
     premiums. The overcharges were for employees working under SFYs 2005 and 2006
     Federal Assistance Program grants.

     Using a rate input by Department employees, the Department’s Federal Aid Payroll
     System (System) calculates workers’ compensation premiums automatically. The
     System applies the rate to labor hours worked on the grants. The Department’s System
     calculated workers’ compensation charges using a premium rate of 3.44 percent. This
     rate had not been updated in the system since the early 1990’s. The actual rates for SFYs




                                              9
2005 and 2006, as established by the State’s Workers’ Compensation Trust, were 3.18
percent and 1.49 percent, respectively.

Title 2 C.F.R. § 225, Attachment B 8(d)(5) classifies fringe benefits, including workers’
compensation, as allowable costs. Title 50 C.F.R. § 80.15(a) states that grantees must
support all costs reimbursed by the grantor with source documents or other records as
necessary. In addition, 43 C.F.R. §§ 12.60 (a) and (b)(2) require States to expend and
account for grant funds in accordance with State laws and procedures for expending and
accounting for its own funds.

We notified Department officials of this finding in March of 2007. The Department
calculated the federal share of excess charges to the grants for workers’ compensation as
$38,355. We verified the calculations. To address these overcharges, Department
officials reduced a current year drawdown for grant F-68-24 by $13,753 and grant W-49-
54 by $24,602. FWS approved of these actions to address the overcharges, and we are
therefore not questioning the costs in this report.

Recommendation

We recommend that FWS develop procedures to ensure that the workers’ compensation
rates are updated annually in the Federal Aid Payroll System.

Department Response

Department officials concurred with the finding. They stated that when they receive
workers’ compensation billings in the future, a copy of the new rate will be given to the
Information Technology department so that the rates in the Federal Aid Payroll system
can be updated.

FWS Response

FWS regional management concurs with the recommendation and has received from the
Department a copy of a procedure to provide new rates for workers’ compensation to the
agency’s Information Technology Department. The Information Technology Department
will then update the Federal Aid Payroll system. The documentation will be incorporated
into a pending corrective action plan

OIG Comments

While FWS regional management concurs with the recommendation and the Department
indicated action is being taken to address it, additional information is needed in the
corrective action plan, including:

   •   targeted completion date,




                                        10
        •   titles of officials responsible for the actions taken or planned to implement the
            recommendation, and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the State.

D.   Potential Diversion of Interest From Timber Revenue

     The Department is required to use revenue from timber sales that take place on land
     purchased under grant W-59-2 for the administration of the fish and wildlife agency. The
     same restrictions apply to interest earned on the revenue. While the Department has
     controls to help ensure the timber revenue is spent accordingly, no controls exist to
     ensure the interest earned on the revenue is spent appropriately.

     Grant W-59-2, dated December 24, 2002, for the period December 6, 2002, through June
     30, 2003, provided funds to purchase the parcels of land on which the timber sales in
     question take place. The grant contains a provision that states:

            Timber revenues realized after the grant period are required to be used in
            perpetuity for the administration for the applicable State fish and wildlife agency
            and may not be diverted to other purposes. [emphasis added]

     Therefore, income generated from timber sales after June 30, 2003, may be used only for
     the administration of the State fish and game agency.

     To comply with this provision, the deed for the land on which the timber sales in question
     occurred contains special language pertaining to timber sales. The language requires that
     revenue from timber sales occurring after June 30, 2003, be treated in the same way
     license revenue is treated. That is, such timber sale revenue is to be used only for the
     administration of the State fish and game agency. Under 50 C.F.R. § 80.4 (a)(3), which
     pertains to license revenue, such revenue includes interest, dividends, and other income
     earned on the revenues.

     Timber revenue is deposited into “Fund 3469,” which may be used only by the
     Department, thereby helping to ensure the revenue is spent as required. However, the
     interest earned on timber revenue is not deposited into Fund 3469 because the Mississippi
     Code of 1972 As Amended (Code) § 27-105-33(h) requires income from such
     investments to be credited to the State general fund. No other controls exist to ensure the
     interest earned from timber revenue is used as required.

     Timber revenue of $541,929 ($292,443 in SFY2005 and $249,486 in SFY2006) was
     invested by the State to earn interest. The interest that was not returned to the fish and
     wildlife agency was potentially diverted to unallowable purposes. We could not identify
     the lost revenue from interest earned on timber sales because the State does not calculate
     interest earned.




                                             11
Subsequent to receiving notification of this finding in March 2007, Department officials
began developing a proposal to the State legislature to revise the Code § 49-5-21 to
ensure the interest earned from timber revenue is returned to the fish and wildlife agency
each year.

Recommendations

We recommend that FWS:

1. determine whether the State officials must calculate the interest earned on the timber
   sale revenues for SFYs 2005 and 2006 and provide an equivalent amount of funding
   to the Department for administration of the fish and game agency, and

2. require the Department to work with the State Treasurer to develop a policy and
   implement a procedure that will annually capture the interest earned on timber sales
   revenue and that will require the interest to be returned to the fish and wildlife agency
   each year.

Department Response

Department officials concurred with the findings. The agency entered into discussions
with the State Treasurer upon being advised of this finding. The Treasurer said that the
timber revenue funds were invested with all other undesignated state funds and that a
“near daily interest rate” was used, making it difficult to calculate prior interest.
However, the Treasurer, after reviewing documentation provided to him by the agency,
agreed that the interest should be maintained within the fund. The Department provided
to FWS and to us a copy of the June accounting records showing interest being deposited
into the Wildlife Timber Fund.

FWS Response

FWS regional management concurs with the recommendations, but prospectively. FWS
officials concur with the auditor that the State did not calculate interest earned for SFYs
2005 and 2006 or any prior years. FWS has received, from the Department, accounting
records indicating that the State Treasurer has implemented a control to now capture the
interest. Accordingly, interest earned on timber sales revenue from the last month of
SFY 2007 (June) has already been deposited into the Special Timber Fund (a fund that
restricts spending to WMAs). Future interest earned will be similarly deposited. The
documentation will be incorporated into a pending corrective action plan.

OIG Comments

While FWS regional management concurs prospectively with the recommendations,
FWS headquarters management should review the issue of whether the State must pay
back interest lost in SFYs 2005 and 2006. Title 50 C.F.R. § 80.4 (a)(3) includes interest
income as license revenue. We found that the State potentially diverted to other uses the




                                         12
     interest earned on timber sales revenue during the two years of our audit period. This
     potential diversion reduced the funds available to the Department for its hunting and
     sport fishing programs. If the FWS Director declared that this was a diversion of license
     revenue, the State could become ineligible to participate in the Federal Assistance
     Program until all license revenue is restored (50 C.F.R. § 80.4(d)). While we recognize
     the difficulty in calculating interest earned, there are potentially severe consequences of
     noncompliance with applicable regulations. Therefore, FWS headquarters management
     should work with FWS Region 4 officials and Department officials to determine whether
     the State must provide funding to replace the interest lost. We modified the first
     recommendation slightly to place responsibility on FWS for making this determination.

     In addition, we modified the second recommendation slightly. While the State Treasurer
     deposited interest in a restricted fund for June 2007, it is still necessary for the State
     Treasurer to develop a policy and implement a procedure that ensures all interest earned
     on timber sales revenue be returned to the fish and wildlife agency each year.

     Additional information is also needed in the corrective action plan, including:

        •   actions taken or planned to address the recommendations,

        •   targeted completion dates,

        •   titles of officials responsible for the actions taken or planned to implement the
            recommendation, and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the State.

E.   Unreported Program Income

     Grantees may earn program income with funds generated from grant-related activities,
     but they must account for such “program income” under an approved method. The
     Department reported to FWS some, but not all, program income earned from permits
     issued for use of the State’s lakes and facilities.

     Title 43 C.F.R. § 12.65 (b) defines program income as “gross income received by the
     grantee or subgrantee directly generated by a grant supported activity, or earned only as a
     result of the grant agreement during the grant period.” Part 12.65(g) defines the methods
     in which grantees must report the program income.

     Each year, the Department reports as program income the revenues it receives from the
     sale of permits for the use of lakes and related facilities owned by the Department. The
     Department reported income from permits for launching boats, use of a Department-
     owned pavilion, and various camping activities. However, in SFY2005 the Department
     added an additional permit for monthly camping. The revenue from this permit was not
     reported on the Financial Status Report (SF-269). As a result, program income of



                                             13
$15,587 was underreported in SFYs 2005 and 2006, including $10,142 for grant F-106-
13 and $5,445 for grant F-106-14.

Subsequent to receiving notification of the finding in March 2007, Department officials
provided revised SF-269s for grants F-106-13 and F-106-14. The revised SF-269s show
the correct amount of program income earned during the grant period. The FWS officials
reported that the revised program income did not affect the federal share of expenditures
for the two grants.

Based on our review of the corrective action taken by the Department and approved by
FWS officials, the Department adequately addressed the $15,587 of underreported
program income earned from the permits that were first issued in SFY2005.

Recommendation

We recommend that FWS require the Department to develop policies and procedures to
determine whether new types of permit revenue should be reported as program income.

Department Response

Department officials concurred with the finding. They stated that in the future they will
consult with the Program Coordinator to determine the types of revenue earned that
should be counted as program income.

FWS Response

FWS regional management concurs with the recommendation and has received from the
Department a copy of a procedure to determine the types of revenue earned that should
be counted as program income. The procedure requires the Program Coordinator to be
consulted to make this determination. The documentation will be incorporated into a
pending corrective action plan

OIG Comments

While FWS regional management concurs with the recommendation and the Department
indicated action has been taken to address it, additional information is needed in the
corrective action plan, including:

   •   targeted completion date,

   •   titles of officials responsible for the actions taken or planned to resolve and
       implement the recommendation, and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the State.




                                         14
                                                      Appendix 1


MISSISSIPPI DEPARTMENT OF WILDLIFE, FISHERIES, AND PARKS
        FINANCIAL SUMMARY OF REVIEW COVERAGE
            JULY 1, 2004 THROUGH JUNE 30, 2006

       Grant Number   Grant Amount    Claimed Costs
         F-3-51            $246,667       $258,100
         F-68-22          1,420,000      1,483,099
         F-68-23          1,420,000      1,222,450
         F-68-24          1,420,000        587,005
         F-70-20            240,000        490,345
         F-70-21            306,667        503,248
         F-71-20            666,000        247,318
         F-71-21            702,000        342,459
         F-106-13         3,050,000      1,905,816
         F-106-14         2,550,000      1,475,496
         F-128-5             40,000         40,000
         F-130-4             46,522         41,543
         F-138-R-1          209,016         26,627
         W-5-16           1,027,555        771,063
         W-5-17           1,058,380        584,746
         W-10-61            204,914        387,284
         W-10-62             92,581         66,786
         W-48-52            508,348        621,627
         W-48-53            508,350        694,267
         W-49-52          3,301,329      2,595,381
         W-49-53          2,825,835      2,768,514
         W-57-32            450,163        489,295
         W-57-33            647,690        373,574
         W-60-3             166,600        145,485
         W-60-4             146,200        146,200
         TOTALS         $23,254,817    $18,267,728




                            15
                                                       Appendix 2

MISSISSIPPI DEPARTMENT OF WILDLIFE, FISHERIES, AND PARKS
                     SITES VISITED


                         Headquarters

                    Fisheries Bureau, Jackson
                    Wildlife Bureau, Jackson


                    Field Offices – Fisheries

             Lake Jeff Davis, Jefferson Davis County


                  Wildlife Management Areas

               Pearl River WMA, Madison County
               Shipland WMA, Issaquena County
                Sunflower WMA, Sharkey County


                             Other

            Georgetown Boat Ramp, Copiah County
           Goshen Landing Boat Ramp, Rankin County




                               16
                                                                                     Appendix 3


        MISSISSIPPI DEPARTMENT OF WILDLIFE, FISHERIES, AND PARKS
                   STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS




Recommendations                   Status                           Actions Required


A, B.1, B.2, C, D.1,   FWS management concurs          Additional information is needed in the
D.2, and E             with the recommendations,       corrective action plan, including the
                       but additional information      actions taken or planned to implement
                       is needed, as outlined in the   the recommendations, targeted
                       “Actions Required”              completion date(s), the title of official(s)
                       column.                         responsible for implementation, and
                                                       verification that FWS headquarters
                                                       officials reviewed and approved of
                                                       actions taken or planned by the State.
                                                       We will refer recommendations not
                                                       resolved and/or implemented at the end
                                                       of 90 days (after December 20, 2007) to
                                                       the Assistant Secretary for Policy,
                                                       Management and Budget for resolution
                                                       and/or tracking of implementation.




                                            17
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
